      Department of Homeland Security




            U.S. Customs and Border Protection 

                    Privacy Stewardship 





OIG-12-78                                          April 2012

April 30, 2012
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


     CBP Needs To Strengthen Its Organizational Approach to Privacy .............................5


     CBP Needs To Improve Compliance With Privacy Requirements ...............................7


     Stronger Measures Needed To Protect CBP Employee Social Security Numbers......10


     Survey Respondents Suggest Improvements to Privacy Safeguards ...........................13


     Recommendations........................................................................................................14


     Management Comments and OIG Analysis ................................................................14


Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................16

     Appendix B: Management Comments to the Draft Report .......................................17

     Appendix C: Legislation, Memoranda, Directives, and Guidance

                 Related to CBP Privacy Stewardship Audit ........................................21

     Appendix D: Component-Level Privacy Officer Designation and Duties ................23

     Appendix E: CBP Culture of Privacy Survey ...........................................................24

     Appendix F: CBP Privacy Compliance Status..........................................................27

     Appendix G: Inconsistencies Between Records Retention Schedules Published in 

                 System of Records Notices and Internal Guidance .............................34

     Appendix H: DHS Fair Information Practice Principles at Work .............................35

     Appendix I: Major Contributors to this Report........................................................37

     Appendix J: Report Distribution ..............................................................................38


Abbreviations
     CBP                   U.S. Customs and Border Protection

     DHS                   Department of Homeland Security

     FEMA                  Federal Emergency Management Agency

     ICE                   U.S. Immigration and Customs Enforcement

     OIG                   Office of Inspector General

     OMB                   Office of Management and Budget

     PII                   personally identifiable information

     TECS                  formerly Treasury Enforcement Communications System

     TSA                   Transportation Security Administration

     USCIS                 U.S. Citizenship and Immigration Services

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                We performed an audit of U.S. Customs and Border Protection’s
                (CBP) privacy stewardship. Our audit objectives were to determine
                whether CBP’s plans and activities instill a culture of privacy that
                protects sensitive personally identifiable information and whether
                CBP ensures compliance with Federal privacy laws and regulations.

                CBP has made limited progress toward instilling a culture of
                privacy that protects sensitive personally identifiable information.
                This is in part because it has not established a strong organizational
                approach to address privacy issues across the component. To
                strengthen its organizational approach to privacy, CBP needs to
                establish an Office of Privacy with adequate resources and staffing
                and hold Assistant Commissioners and Directors accountable for
                their employees’ understanding of and compliance with their
                privacy responsibilities.

                In addition, CBP needs to improve its compliance with Federal
                privacy laws and regulations. Specifically, it needs to develop a
                complete inventory of its personally identifiable information
                holdings, complete privacy threshold analyses for all systems, and
                develop accurate system of records notices for its systems. CBP
                also needs to ensure that privacy impact assessments are conducted
                for all personally identifiable information systems.

                CBP also needs to implement stronger measures to protect employee
                Social Security numbers. Without a component-wide approach to
                minimizing the collection of employee Social Security numbers,
                privacy incidents involving these numbers will continue to occur.

                Respondents to our privacy survey provided thousands of
                suggestions on how CBP can better instill a culture of privacy. We
                are making three recommendations to the Acting Commissioner of
                CBP.




                U.S. Customs and Border Protection Privacy Stewardship

                                       Page 1
Background
             The Privacy Act of 1974, as amended (Privacy Act) imposes
             various requirements on agencies whenever they collect, use,
             maintain, or disseminate personally identifiable information (PII)
             in a system of records. The Department of Homeland Security
             (DHS) defines PII as any information that permits the identity of
             an individual to be inferred directly or indirectly, including any
             information that can be linked to that individual regardless of
             whether the individual is a U.S. citizen, lawful permanent resident,
             visitor to the United States, employee, or contractor to the
             Department. Federal laws, regulations, directives, and guidelines
             set the minimum standards for handling PII. Appendix C lists
             Federal privacy laws and policies related to CBP privacy
             stewardship.

             CBP secures the Nation’s borders, protects the public against
             terrorists, and facilitates the flow of legitimate international trade
             and travel. To accomplish CBP’s mission, different groups of CBP
             employees may collect, use, maintain, or process PII on a daily
             basis, as shown in figure 1.




             Figure 1. U.S. Customs and Border Protection Employee Groups

             The Office of Border Patrol and the Office of Field Operations
             account for almost 85 percent of CBP’s employees. These offices
             may handle a significant volume of PII. For example, more than
             20,000 border agents collect, handle, share, or maintain PII to
             secure 6,900 miles of border with Canada and Mexico, as well as
             95,000 miles of shoreline. In fiscal year 2010, more than 23,000
             field officers and specialists at ports of entry collected, handled,
             shared, or maintained PII related to more than 350 million
             travelers, 105 million conveyances (cars, trucks, buses, trains,
             vessels, and aircraft), and 24 million truck, rail, and sea containers.
             CBP employees use 46 information technology systems that
             maintain Social Security numbers, biometric data, and financial
             information. For example, one system stores more than 35
             U.S. Customs and Border Protection Privacy Stewardship

                                    Page 2
                              terabytes of PII 1 Figure 2 shows examples of PII that CBP collects
                              from data owners and stores in different systems.

                                                                From Whom             What Personally Identifiable
                                       CBP System
                                                                  Or What            Information May Be Collected
                                                                                 name, date of birth, address, gender,
                                TECS System: CBP                                 citizenship, Social Security number,
                                                                                 phone number, occupation, photo,
                                Primary and Secondary Traveler                   fingerprint ID number, driver’s license
                                Processing                                       data, vehicle information, dates and
                                                                                 method of arrival/departure

                                                              Traveler           list of passengers and crew on flight,
                                Automated Targeting                              passenger name records that include
                                                              Conveyance         name, address, flight, seat number,
                                System
                                                              Cargo              cargo destination, and account data
                                Automated Commercial          Broker             name, date of birth, address, gender,
                                System/                       Carrier            citizenship, driver license data, travel
                                Automated Commercial          Importer           document data, destination, account
                                Environment                   Cargo              data, electronic manifests
                                                                                 name, date of birth, gender,
                                Advanced Passenger                               citizenship, passport information,
                                Information System/           Passenger          travel document type, U.S. address for
                                Non-Immigrant                 Crew               foreign nationals, passenger name
                                Information System                               records, pilot license, country of issue
                                                                                 for aircrew

                              Figure 2. Types of Personally Identifiable Information Collected by CBP

                              A component’s culture of privacy reflects how well its executive
                              leadership, managers, and employees understand, implement, and
                              enforce a commitment to protect privacy. Privacy stewardship, or
                              the promotion of an effective culture of privacy, leads to embedded
                              shared attitudes, values, goals, and practices for complying with
                              the requirements for proper handling of PII. A component privacy
                              office can help enhance the culture of privacy by identifying
                              privacy issues and working within the component to address them.

                              An effective culture of privacy supports ongoing risk assessment,
                              assurance that appropriate safeguards are followed to protect
                              individual PII and full sustainment of privacy compliance. Serious
                              consequences to PII can result if CBP does not regularly assess and
                              confirm whether PII is secure in its information technology
                              systems. For example, a data breach of a major information
                              technology system has been estimated to cost an average of $213
                              per record to resolve each privacy incident. 2 Given the significant
                              volume and critical nature of the 1.2 million records containing
                              traveler’s identity information generated in CBP’s TECS (formerly

1
  A terabyte is a unit of measurement for digital information that is equivalent to 1 trillion bytes. One terabyte is
equivalent to the information stored in a large public library. Therefore, 35 terabytes are equivalent to 35 large public
libraries.
2
  According to the Ponemon Institute 2010 Annual Study: U.S. Cost of a Data Breach, March 2011, data breaches cost
an average of $213 per compromised record, which includes the costs of investigating the breach, preparing breach
notifications, and providing credit monitoring to affected individuals.

                             U.S. Customs and Border Protection Privacy Stewardship

                                                         Page 3
                             the Treasury Enforcement Communications System) in a single
                             day, a data breach could cost $255.6 million. By complying with
                             privacy requirements, including risk assessment and mitigation,
                             CBP would be able to perform its mission while minimizing
                             negative impact on individual privacy.

                             On June 5, 2009, the DHS Deputy Secretary issued the DHS
                             Memorandum Designation of Component Privacy Officers (DHS
                             Designation Memorandum), directing 10 components, including
                             CBP, to designate senior-level Federal employees as their full-time
                             Privacy Officers. CBP selected a Branch Chief under the Office of
                             International Trade as the Privacy Officer, but decided to retain his
                             existing organizational placement. CBP responded to the DHS
                             Deputy Secretary that this placement would “comply, substantially,
                             with…[the DHS Designation Memorandum]…as well as with the
                             constraints imposed upon CBP by both the Homeland Security Act
                             of 2002 and the Security and Accountability for Every Port Act of
                             2006 (SAFE Port Act).” 3 The selected Privacy Officer continues
                             to perform the full-time responsibilities as one of the many Branch
                             Chiefs in the Office of International Trade.

                             The DHS Designation Memorandum requires the component
                             Privacy Officers to report to the head of the component. When
                             acting as the CBP Privacy Officer, he reports through the Assistant
                             Commissioner of the Office of International Trade to the
                             Commissioner. Figure 3 illustrates the organizational placement of
                             the two distinct positional responsibilities and respective
                             information flow, one as the Privacy Officer (blue box and dotted
                             line to show informal information flow) and another as the Branch
                             Chief (green box and solid line to show his formal reporting line).




3
  The SAFE Port Act mandated compliance with Section 412(b) of the Homeland Security Act that required legacy
U.S. Customs revenue functions to continue under the newly established DHS, to include the specific allocation of staff
in trade facilitation. Therefore, the staff of the Office of International Trade inherited the mandatory staffing
requirements because they facilitate CBP’s compliance with the SAFE Port Act.

                            U.S. Customs and Border Protection Privacy Stewardship

                                                        Page 4
                 Figure 3. Privacy Officer Placement and Reporting



Results of Audit

     CBP Needs To Strengthen Its Organizational Approach to Privacy
          CBP has made limited progress toward instilling a culture of privacy. This
          is in part because it has not established a strong organizational approach to
          address privacy issues across the component. CBP designated one of its
          senior officials as its Privacy Officer in July 2009. As indicated in figure
          3, his assignment is collateral with his responsibilities as Branch Chief,
          limiting his ability to address fully the wide array of duties described in
          the DHS Designation Memorandum. (See appendix D for a complete list
          of duties required of component Privacy Officers.)

          For example, CBP has not issued a privacy directive outlining an
          organizational approach to ensure proper handling of PII and a strategic
          vision on privacy matters. Such a directive would formally hold Assistant
          Commissioners and Directors accountable for their employees’
          understanding of and compliance with all Federal privacy laws and
          regulations. The strategic vision would support managers and staff in
          working closely with the Privacy Officer and including him in all
          management strategy meetings and operational planning that could affect
          privacy. The Privacy Officer is best situated to identify the privacy issues
          related to CBP’s mission and work with managers on how best to

                 U.S. Customs and Border Protection Privacy Stewardship

                                        Page 5
implement DHS privacy policies into their specific operations. By
implementing a privacy directive, CBP would improve the presence and
effectiveness of the CBP Privacy Officer and the extent to which he can
perform essential duties, such as the following:

   •	 Monitoring the component’s compliance with all Federal privacy
      laws and regulations; implementing corrective, remedial, and
      preventive actions; and, notifying the DHS Privacy Office of
      privacy issues or noncompliance when necessary;
   •	 Assisting in drafting and reviewing privacy threshold analyses,
      privacy impact assessments, and system of records notices, as well
      as any associated privacy compliance documentation; and,
   •	 Implementing and monitoring privacy safeguards, including
      training, for employees and contractors.

Also according to the DHS Designation Memorandum, components are to
provide their Privacy Officers with adequate support and resources. CBP,
however, has provided staff members to manage on a part-time basis a
privacy program for the 58,000 employees who handle PII. Other DHS
components—including the Federal Emergency Management Agency
(FEMA), United States Immigration and Customs Enforcement (ICE),
Transportation Security Administration (TSA), and United States
Citizenship and Immigration Services (USCIS)—support their respective
privacy programs with anywhere from 3 to 13 full-time staff. Figure 4
shows the components that have issued privacy directives or policies to
hold formally their managers accountable for their operations’ compliance
with privacy requirements.

                Est. # Employees
                                        Formally Established    # Staff Provided for
 Component     Handling Personally
                                      Management Accountability    Privacy Office
             Identifiable Information

                    58,000                      No                 11 (collateral
 CBP
                                                                       duty)
 FEMA                7,000                     Yes                        8
 ICE                13,000                     Yes                        5
 TSA                20,000                     Yes                        3
 USCIS              18,000                     Yes                       13

Figure 4. Comparable DHS Component Privacy Offices

We conducted a survey of CBP’s culture of privacy to assess privacy
knowledge and obtain responses on three questions regarding privacy risks
and integrating privacy into daily operations. (See appendix E for the
survey methodology, details, and results.) More than 650 responses
addressed the need for CBP to provide a shared strategic vision on privacy
matters. Almost 800 responses indicated that managers can improve

       U.S. Customs and Border Protection Privacy Stewardship

                                Page 6
                   privacy stewardship. CBP officials whom we interviewed said that more
                   resources and management accountability are needed to ensure that CBP
                   has an effective privacy program. As discussed in the following sections,
                   CBP continues to face challenges in ensuring the protection of PII across
                   the component.

         CBP Needs To Improve Compliance With Privacy Requirements
                   CBP needs to improve its overall compliance with Federal privacy laws
                   and regulations. Specifically, CBP needs to develop a complete inventory
                   of all of its holdings of PII. In addition, CBP needs to conduct privacy
                   threshold analyses to identify all systems that affect privacy. 4 Further,
                   CBP needs to ensure that published system of records notices accurately
                   reflect employee practices in handling the public’s PII. Finally, CBP
                   needs to perform privacy impact assessments for its systems.

                             Inventory of Holdings for Personally Identifiable Information
                             Is Not Complete

                             CBP’s inventory of its holdings for PII is not complete. Office of
                             Management and Budget (OMB) M-07-16 requires agencies to
                             review their holdings of all PII and ensure that they are accurate,
                             relevant, timely, and complete. Holdings for PII include systems,
                             programs, and records that are privacy sensitive.

                             CBP cannot confirm the collection, location, and status of all of its
                             PII. For its inventory of holdings for PII, CBP has relied on an
                             electronic system, Trusted Agent Federal Information Security
                             Management Act (Trusted Agent). Trusted Agent tracks only
                             general support information technology systems and major
                             applications. 5 General support information technology systems
                             and major applications do not include other subsystems, modules,
                             applications, programs, or records that collect, use, disseminate, or
                             maintain personally identifiable information. Therefore, Trusted
                             Agent does not contain a complete inventory of holdings for
                             personally identifiable information.



4
  For this report, we use “system” to refer to a system of records as well as information technology systems (e.g.,
subsystems, modules, applications), programs, rule-making, or technology that may be sensitive to privacy. A system
of records may be paper-based or electronic. A system of records is a group of any records about an individual under
agency control from which information is retrieved by that individual’s name, identifying number, symbol, or other
identifying particular assigned to the individual.
5
  Trusted Agent is a software application that the DHS Office of the Chief Information Officer uses to comply with the
Federal Information Security Management Act of 2002. DHS uses Trusted Agent to track major systems, including
those that affect privacy. Components retain certain privacy compliance documentation along with security
documentation in Trusted Agent.

                            U.S. Customs and Border Protection Privacy Stewardship

                                                        Page 7
CBP’s information technology staff is responsible for tracking and
updating documentation for the 101 major information technology
systems in Trusted Agent. Figure 5 shows how CBP has
categorized the privacy status of these information technology
systems.

   Number of systems in inventory of personally
                                                                 47
   identifiable information
   Number of information technology systems without
                                                                 54
   personally identifiable information in inventory
   Total number of systems in Trusted Agent inventory           101
Figure 5. Trusted Agent Inventory
Source: DHS Privacy Office, Trusted Agent, and CBP records, as of July 15,
2011.

In addition, CBP has not accounted for all of its systems. Through
analysis of the Trusted Agent inventory, reports from the DHS
Privacy Office, and CBP’s Intranet website, as well as information
gathered from interviews, we determined that there are at least 48
potential systems that are in neither Trusted Agent nor the CBP
Privacy Officer’s inventory list. Examples include systems to
track cargo, intellectual property rights, passenger screening, and
private aircraft. (See appendix F for information on CBP’s
systems.) Because it has not identified all of its systems, CBP
cannot ensure that effective privacy protections and mitigation of
privacy risks for its systems, programs, and records have been
implemented.

Privacy Threshold Analyses Not Performed

CBP has not conducted privacy threshold analyses for all of its
systems. The DHS Privacy Office requires component program
managers to submit a privacy threshold analysis every three years,
when significantly changing existing systems, or when proposing
new systems of records. The privacy threshold analysis is used to
identify the systems that affect privacy.

More than 70 percent (71 of 101) of CBP’s systems need privacy
threshold analyses. Specifically, 32.7 percent (33 of 101) of
systems in Trusted Agent still require privacy threshold analyses,
and 37.6 percent (38 of 101) of systems have expired privacy
threshold analyses that need to be updated. Only 29.7 percent (30
of 101) of CBP privacy threshold analyses are current. In addition,
there are 48 potential systems that need privacy threshold analyses.
(See appendix F for status.) Once CBP submits a privacy
threshold analysis, the DHS Privacy Office determines whether

U.S. Customs and Border Protection Privacy Stewardship

                       Page 8
                              (a) the activity involves PII, (b) a privacy impact assessment is
                              required, and (c) an existing or new system of records notice is
                              required for a collection of PII.

                              System of Records Notices
                              CBP has not developed system of records notices for all of its
                              systems, as required by the Privacy Act. Specifically, 22.7 percent
                              (10 of 44) of CBP’s systems do not have system of records notices.
                              The Privacy Act requires Federal agencies to issue a notice for all
                              systems of records under their control that collect personally
                              identifiable information and from which information is retrieved
                              by a unique identifier. The system of records notices provide to
                              the public the rights and procedures for accessing and correcting
                              personally identifiable information maintained by an agency on an
                              individual. 6
                              In addition, all of CBP’s published system of records notices for
                              the remaining 34 (of 44) systems contain inconsistent information
                              regarding the 26 types of records that they describe. For example,
                              some records are being disposed of before the dates specified in
                              their respective system of records notices. Other records are being
                              held longer than the times identified in their respective system of
                              records notices. According to the Privacy Act, information in the
                              system of records notices must accurately describe how
                              Government employees are handling the public’s PII. (See
                              appendix G for additional information on inconsistencies between
                              CBP system of records notices and internal guidance.)

                              Privacy Impact Assessments Are Not Performed

                              CBP has not conducted privacy impact assessments for all of its
                              systems. The E-Government Act of 2002 requires agencies to
                              conduct privacy impact assessments for all new or substantially
                              changed information systems that collect, maintain, or disseminate
                              PII. The privacy impact assessment process is a decision-making
                              tool that requires pertinent information for analysis to ensure that
                              privacy protections are incorporated during the development and
                              operation of systems and programs that affect personally
                              identifiable information.



6
  System of Records Notices are published in the Federal Register to inform the public about what personally
identifiable information is being collected, why it is being collected, how long it is being retained, and how it will be
used, shared, accessed, and corrected. The Federal Register is the official daily publication for rules, proposed rules,
and notices of Federal agencies and organizations, as well as executive orders and other presidential documents, and is
published by the Office of the Federal Register, National Archives and Records Administration.

                             U.S. Customs and Border Protection Privacy Stewardship

                                                         Page 9
            Although the DHS Privacy Office required privacy impact
            assessments for 31 of CBP’s systems, 58.1 percent (18 of 31) of
            these systems still do not have them, as indicated in figure 6. Only
            41.9 percent (13 of 31) of the systems have approved privacy
            impact assessments that are posted on the DHS Privacy Office
            website. In addition, as identified in the section regarding privacy
            threshold analyses, 48 systems may need privacy impact
            assessments, as well.

              Number of systems with completed privacy impact
                                                                            13
              assessments
              Number of systems without privacy impact assessments          18
              Total number of systems that require privacy impact
              assessments
                                                                            31

            Figure 6. Status of Privacy Impact Assessments
            Source: DHS Privacy Office, Trusted Agent, and CBP records and interviews,
            as of July 15, 2011.

Stronger Measures Needed To Protect CBP Employee Social
Security Numbers
     CBP has not taken appropriate measures to protect its employees’ Social
     Security numbers. In June 2007, the Office of Personnel Management
     issued guidance and instructions for agencies to eliminate the unnecessary
     use of employee numbers as identifiers and to strengthen the protection of
     employee Social Security numbers from theft or loss. However, CBP has
     not implemented component-wide measures to eliminate the unnecessary
     collection of employee Social Security numbers on electronic and paper
     forms, nor has it employed effectively alternative identifiers. Without
     implementing such measures, CBP increases the risk that employee Social
     Security numbers will be lost or stolen.

            Unprotected Social Security Numbers on Electronic and Paper
            Forms

            CBP has not implemented sufficient measures to protect Social
            Security numbers in information systems or on paper forms. DHS
            Privacy Policy Guidance Memorandum 2007-02 Regarding the
            Use of Social Security Numbers at DHS allows programs to
            collect, use, maintain, and disseminate Social Security numbers as
            unique identifiers only when required by statute or regulation.
            Absent a legal requirement, DHS programs are to create their own
            unique identifiers to identify or link information about individuals.

            Although CBP posted DHS Memorandum 2007-02 on its Intranet
            site for the Training Records And Enrollment Network, it

           U.S. Customs and Border Protection Privacy Stewardship

                                  Page 10
                            maintains training records for more than 58,000 employees and
                            continues to collect, store, and track employee Social Security
                            numbers for course enrollments. According to CBP officials, the
                            current training network was designed to use employees’ Social
                            Security numbers as unique identifiers. To correct this oversight
                            and improve the functionality of the system, a new training
                            network is being developed that does not use employees’ Social
                            Security numbers as unique identifiers.

                            In addition, TECS is a system that supports enforcement and
                            inspection operations by tracking and processing data on suspect
                            individuals, businesses, vehicles, aircraft, and vessels entering the
                            United States by air, land, or sea. TECS data are maintained and
                            updated by more than 58,000 CBP employees, as well as another
                            12,000 employees in more than 20 Federal agencies. TECS
                            maintains a history or log of employee user activities. When we
                            viewed various logs on TECS screens, we were able to see the
                            names and Social Security numbers of the employees who
                            collected, accessed, and maintained TECS information.7 The same
                            screens with employee Social Security numbers can be viewed by
                            TECS users at ports of entry, bridges, land borders, and in field
                            offices and vehicles. CBP is currently modernizing TECS. As
                            part of this effort, CBP will implement new procedures to protect
                            employee Social Security numbers.

                            Finally, CBP has not minimized the collection of employee Social
                            Security numbers on all of its administrative paper forms. Most of
                            these forms require only names, partial Social Security numbers,
                            alternative identifiers, or Social Security numbers for financial and
                            security reasons. However, we also identified forms that require
                            employees to provide their complete Social Security numbers
                            without identifying any legal authority for them. For example, we
                            found forms requiring employees’ complete Social Security
                            numbers regarding canines, personal clothing, and equipment.

                            Insufficient Use of Alternative Identifiers

                            OMB M-07-16 states that agencies should explore alternatives to
                            the use of Social Security numbers as personal identifiers for
                            Federal employees. Since 2007, CBP has been issuing “HASH-
                            IDs” to comply with OMB guidance, but has not required their use
                            to replace Social Security numbers. 8 According to CBP officials,
                            HASH-IDs cannot be required component-wide because they are

7
  TECS also contains the public’s Social Security numbers. Additional information is provided about TECS on pp. 

3–4 of this report.

8
  A HASH-ID is a unique identifier for each CBP employee.


                           U.S. Customs and Border Protection Privacy Stewardship

                                                     Page 11
not supported by all information technology systems, such as the
Training Records And Enrollment Network. By continuing to use
employee Social Security numbers, CBP places them at an
unnecessary risk of disclosure.

Privacy Incidents Concerning Social Security Numbers

Without a strong approach to minimizing the collection of
employee Social Security numbers and implementing effective
measures to protect them, privacy incidents involving employees’
Social Security numbers continue to occur. For example, as
reported by CBP to the DHS Security Operations Center during a
2-year period (2009 to 2010)—

     •	 An e-mail containing Social Security numbers for 75
        individuals was sent to 13 other employees who had no
        need to know this information.
     •	 A personal digital camera was used to take a picture of a
        computer monitor that displayed the names, Social Security
        numbers, and dates of birth of 33 airport employees.
     •	 An e-mail containing the Social Security number of an
        employee was sent to two FEMA employees who were not
        intended to receive the e-mail.
     •	 Three unencrypted DVDs containing Social Security
        numbers were sent to a new duty location using a
        commercial delivery service.

In addition, respondent comments to our culture of privacy survey
identified two common situations that we confirmed at CBP work
locations in which employee Social Security numbers had been
placed at risk unnecessarily. First, some supervisors and
employees have left paper copies of forms with employee Social
Security numbers in unattended areas where someone from the
public would have access, such as on the front desk of a reception
area. Second, some supervisors and staff have verbally disclosed
employee Social Security numbers in open areas of offices within
earshot of people who would normally not have access to or a
“need to know” PII. Without implementing measures to minimize
and protect the use of employees’ Social Security numbers, CBP is
increasing the risk that employee PII will be lost or stolen.




U.S. Customs and Border Protection Privacy Stewardship

                       Page 12
Survey Respondents Suggest Improvements to Privacy
Safeguards
     The Privacy Act requires that agencies implement administrative,
     physical, and technical safeguards to ensure the security and
     confidentiality of records. In addition, these safeguards should protect
     against any anticipated threats or hazards that could result in substantial
     harm to individuals from whom information is collected. More than
     40 percent (2,907 of 7,229) of written comments by respondents to CBP’s
     culture of privacy survey related to improving privacy safeguards.

     Employees provided 817 comments or suggestions concerning privacy
     training. These comments included the need for CBP to—

        •	 Provide in-person, instructor-led training at field sites (346);
        •	 Provide more frequent training (232);
        •	 Incorporate on-the-job and real-world examples related to different
           programs and operations (85);
        •	 Improve training of contractors who work in areas where PII is
           handled (74);
        •	 Develop specialized privacy training for particular groups, such as
           new employees, supervisors, and executive managers (49); and
        •	 Simplify the presentation and concepts during privacy training, so
           they can be applied more easily to daily operations (31).

     Employees also provided 552 comments or suggestions on improving
     other administrative safeguards. These comments included the need for
     CBP to—

        •	 Consolidate forms and databases to reduce duplication of PII (381);
        •	 Enforce existing DHS policies on protecting PII, such as
           conducting internal audits to determine compliance with required
           safeguards on the job (155); and
        •	 Conduct thorough background checks of employees and
           contractors who are responsible for handling PII (16).

     In addition, employees provided 734 comments or suggestions on
     improving physical safeguards. These comments included the need for
     CBP to—

        •	 Adjust layout of work areas to improve the protection of PII (211);
        •	 Supply drawers or bins to secure PII (192);
        •	 Provide locks on cabinets and containers to secure PII (133);


           U.S. Customs and Border Protection Privacy Stewardship

                                  Page 13
   •	 Provide privacy screens or adjust the placement of monitors to
      prevent onlookers from seeing PII (93);
   •	 Address general issues related to physical safeguards (78); and
   •	 Improve physical barriers to prevent unauthorized persons from
      accessing government computers (27).

Finally, employees provided 804 comments or suggestions on improving
technical safeguards. These comments included the need for CBP to—
   •	 Enforce consistent application of password protection and 

      encryption (481); 

   •	 Establish limitations on access to databases (142);
   •	 Implement technical solutions to prevent unauthorized access to
      data on personal electronic devices and removable storage media
      (88);
   •	 Address general issues related to technical safeguards (74); and
   •	 Consider automated alerts and pop-ups to prompt users to protect
      PII (19).


Recommendations
      We recommend that the Acting Commissioner of CBP:

      Recommendation #1: Establish an Office of Privacy with adequate
      resources and staffing to ensure that CBP is able to fulfill its
      privacy responsibilities.

      Recommendation #2: Issue a directive that holds Assistant
      Commissioners and Directors accountable for their employees’
      understanding of and compliance with their privacy responsibilities.

      Recommendation #3: Implement stronger measures to protect
      employee Social Security numbers and minimize their use.

Management Comments and OIG Analysis
      We obtained written comments on a draft of this report from the
      Assistant Commissioner of CBP’s Office of Internal Affairs. A
      copy of the comments is in appendix B.

      CBP concurred with recommendation #1. CBP’s Acting
      Commissioner issued a memorandum entitled “Privacy Compliance
      and U.S. Customs and Border Protection,” dated February 10,
      2012. CBP indicated that it: (a) recognizes the expansion of its
      privacy role from that previously defined in the Deputy Secretary’s
      U.S. Customs and Border Protection Privacy Stewardship

                             Page 14
Memorandum, dated June 9, 2009, to include the review of
information sharing activities as part of its privacy compliance
role; (b) identifies its Privacy Office and associated staff as the
attorney staff that has been assigned to the Office of International
Trade since March 2003; and, (c) confirms that the identified staff
positions remain assigned to the Office of International Trade to
meet the Homeland Security Act of 2002 and the SAFE Ports Act
of 2006. We consider recommendation #1 open and unresolved,
pending our review of documentation regarding the allocation of
adequate resources and staffing to ensure that CBP is able to fulfill
its privacy responsibilities.

CBP concurred with recommendation #2. CBP’s Acting
Commissioner issued a memorandum to all Assistant
Commissioners, the Chief of the Border Patrol, Chief Counsel, and
all Executive Directors, entitled “Privacy Compliance and U.S.
Customs and Border Protection,” dated February 10, 2012, which
disseminates the DHS Privacy Policy and Compliance Directive
and Instructions, dated July 2011, for departmental guidance on
privacy compliance. CBP indicated that both documents expand
the privacy mission to include a role in reviewing information
sharing activities. We consider recommendation #2 open and
unresolved, pending our review of documentation that establishes
accountability of Assistant Commissioners and Directors for their
employees’ understanding of and compliance with their privacy
responsibilities.

CBP concurred with recommendation #3. CBP indicated that it
has started implementation of a multi-year TECS Modernization
Plan for the removal of Social Security numbers as user
identification and a general visible identifier for TECS users and
records owners. According to CBP, charges started with web
applications for 30 internal CBP users in November 2011 and will
continue with 12 external DHS users scheduled for March 2012.
CBP indicates that TECS Modernization plans include
functionality to remove the use of supervisor Social Security
numbers from approval functions, affecting 8,000 users by March
2013. We consider recommendation #3 open and unresolved,
pending our review of documentation regarding implementation of
stronger measures to protect employee Social Security numbers
and minimize their use.




U.S. Customs and Border Protection Privacy Stewardship

                       Page 15
Appendix A
Purpose, Scope, and Methodology

                   Our objectives were to determine whether CBP has plans and
                   activities that instill a culture of privacy that protects sensitive
                   personally identifiable information and ensure compliance with
                   Federal privacy laws and regulations. As background for this
                   audit, we reviewed Federal laws and guidance related to CBP’s
                   responsibilities for privacy protections. We interviewed officials
                   from the DHS Privacy Office on component privacy reporting.
                   We reviewed testimonies, documentation, and reports related to
                   CBP’s privacy, information technology security, and program
                   management.
                   In addition to interviewing CBP’s Privacy Officer, we interviewed
                   60 program managers, officers, and information system security
                   professionals at CBP headquarters and field sites. We e-mailed a
                   survey to CBP employees to obtain their recommendations for
                   improving their understanding of privacy and for an indication of
                   their privacy knowledge. We received 7,229 individual comments
                   on privacy risks, integrating privacy in daily operations, and
                   challenges in CBP privacy stewardship. (See appendix E for
                   details.)
                   We reviewed the privacy-related duties and activities performed by
                   the CBP Privacy Officer, Records Officer, Training Office, and field
                   personnel. We analyzed training programs and their content, as well
                   as guidance on information technology and records management to
                   determine whether they met the requirements of Federal privacy and
                   security laws and regulations. We reviewed privacy threshold
                   analyses, privacy impact assessments, and system of records notices
                   for 47 systems identified in Trusted Agent that contain personally
                   identifiable information and identified additional systems.
                   Our analysis is based on direct observation, review of applicable
                   documentation, and interviews. We conducted this performance
                   audit between April and November 2011 pursuant to the Inspector
                   General Act of 1978, as amended, and according to generally
                   accepted government auditing standards. Those standards require
                   that we plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based upon our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based upon our audit objectives.
                   The principal OIG points of contact for the audit are Frank Deffer,
                   Assistant Inspector General for Information Technology Audits, at
                   (202) 254-4041 and Marj Leaming, Director, System Privacy
                   Division, at (202) 254-4172. Major OIG contributors to the audit
                   are identified in appendix I.

                  U.S. Customs and Border Protection Privacy Stewardship

                                         Page 16
Appendix B
Management Comments to the Draft Report


                                                                                  1300 Ptnnsylnlli.l An,:nut NW
                                                                                  W.lshinglon , DC 20219



                                                                                  u.s. Customs ."d
                                                                                  Border Protection


                                                                                         March 13,20 12




          Charles K. Edwards
          Acting Inspector (jeneral
          Department of Homeland Security
          245 Murray Drive, SW, Building 410
          Washington, DC 20528

          Re : The Office of Inspector General' s Draft Report Entitled, "United States Customs and
               Border Protection Privacy Stewardship· For Official Use Only"

          Dear Mr. Edwards:

                 Thank you for the opportun ity to review and comment on the Office of Inspector
          General's (OlG's) draft report entitled "United States Customs and Border Protection
          Privacy Stewardship· For Official Use Only ," (project no. OIG- I I -0 16·IT A-CBP).
          U.S. Customs and Border Protection (CBP) appreciates the 01G's work in planning and
          conducti ng its review and issuing this report.

          While CBP 's Office of International Trade (OT) recognizes the vast scope of the task
          before the OIG in undertaking a full audit of all CBP, the audit does not provide a
          complete understanding o f certain major information technology (IT) systems such as
          TECS . Authorized CBP employees use TEeS and its various sub-systems and modules to
          fulfill lHlmerous border security mission responsibilities. In the draft report the OIG ,
          identi fies TEeS fo r its vast holdings of personally identifiable info rmation ( PIJ), and its
          legacy reliance upon the employee social security number (SSN) as a user identification
          (1 0 ); however, the aud it does not note that in over twenty years of service collecting
          information pertai ning to all persons lawfull y, and in some cases unlawfully, crossing the
          border, TEeS has never had a major data breach as described in the example on pages
          three and four of the draft report .

          e BP believes that the culture of privacy instilled through the mandatory req uirement that
          each TEeS user pass the TECS Privacy Awareness Course on an ammal basis (39,30 1
          users passed the test in FY 2011) contributes strongly to th e enviab le record TECS has
          establ ished with respect to safeguarding its information ho ldings. Furthermore, this culture
          of privacy from TECS permeates not only the user communities of other CBP IT systems
          that rely upon passing the TEeS privacy course to grant system access, but also creates a
          common bond of understanding with




                       U.S. Customs and Border Protection Privacy Stewardship


                                                     Page 17

Appendix B
Management Comments to the Draft Report


                                                        2


          respect to privacy and information shari ng concepts. CBP has a strong culture of privacy
          thai C81U10t simply be defined by the careful, deliberate, and cautious upgrade ofTECS
          functionality.

          Similarly, the Chart in Appendix F, starting on page 26. notes many PII hold ings belonging
          to CBP, but does not adequately recognize the cO lmcctions or coverage of these holdings in
          the privacy compliance documents pertaining to their larger IT systems. The discussion of
          the chart in the report implies that the holdings are not covered and exist as untracked or
          are not inventoried by CSP. Again, TEeS serves as an example in that fifleen separate
          entries (out of the 49 listed in Appendix F) are identifiable to TEeS and covered by the
          TEeS privacy compliance. CB P drdws anention to these representations so that the full
          scope ofTECS compliance and risks can be known. Enclosed to this letter are CBP's
          technical comments which detail CBP 's main concerns regarding the accuracy of system
          representations and PH holdings in Append ix f.

                 The report makes three recommend,ltions for cap. A summary of cap actions
          and corrective plans to address the recommendations is provided below:

          R eco mmend a tio n ~ 1 : Establ ish an Office of Privacy with adequate resources and siaffing
          to ensure thai CBP is able to fulfill its privacy responsibi lities.

          C UP Respo nse: Concur. CBP notes that certain staffing requirements of the Homeland
          Security Act of 2002 and the SAfE Ports Act of 2006, mandate that the staff and posi tions
          which have ensured CBP's privacy compl iance si nce CBP was slood up in March 2003,
          remain identified to the a ttorney staff currently assigned to OT.

          On February 10, 2012, the Acting Commiss ioner, CBP, issued a memorandum entitled
          " Privacy Compliance and U.S. Customs and Border Protection" to all Ass istant
          Commiss ioners, the Chief of the Border Patrol, ChicfCounsci . and all Executive Directors
          (see enclosed). The Acting Commissioner's Memorandum also di sseminates the Privacy
          Policy and Compliance Directive and implementing Instructions issued by DHS in July
          2011, during the pendency of the subject audit. These documents are noteworthy as they
          both provide departmental guidance with respect to privacy compliance and the role of
          privacy across the DHS enterprise, and clearly expand the privacy mission to include a role
          in reviewing information sharing activities. This expansion of the ro le defined in the June
          9,2009, memorandum from the Deputy Secretary clearly establishes the precedent for the
          fu ll scope of the Acting Commissioner'S Memorandum , and his charge to Cll P. CBP
          believes that through the e nclosed memorandum by its Acting Commissioner it has
          idenrified its Privacy Office and associated staff.

          According ly, CBP respectfu ll y requests c losure of this recommendation.

          Reco mm end at ion #2: Issue a directive that holds Assistant Commissioners and Directors
          accountable for their employees' understand ing of and compliance with privacy
          responsibilities.




                       U.S. Customs and Border Protection Privacy Stewardship


                                                     Page 18

Appendix B
Management Comments to the Draft Report


                                                         3


          C BP R es ponse: Concur. On February 10,2012, the Acting Commissioner, eBP, issued a
          memorandum entitled " Privacy Compliance and U,s. Customs and Border Protection" to
          all Assistant Commissioners, the Chiefoflhe Border Patrol, Chief Counsel. and all
          Executive Directors (see enclosed). The thrust of the memorandum emphasi:£ed the
          importance of privacy compl iance throughout CB P not only in how cap collects and
          maintains infonnation obtained from the public, but also with respect to how CBP shares
          that infonnation with its various federal, state, local, and foreign partners in fulfillment of
          its twin law enforcement and trade facilitation missions. CBP has enclosed to this letter a
          copy of Acting Commissioner's memorandum and the Pri vacy Compliance and
          Information Sharing process worktlows that it disseminated to affirm a consistent practice
          and role for privacy in these two aspects of the CBP mission. The Acting Commissioner's
          Memorandum also disseminates the Privacy Policy and Comp liance Directive and
          implementing InSlnlctions issued by DHS in July 2011, duri ng the pendency of the subject
          audit. These documents are noteworthy as they both provide departmental guidance with
          respect to privacy com pliance and the role of privacy across the DHS en terprise, and
          clearly expand the privacy mission to include a role in reviewing information sharing
          activities.

          Accordingly, CBP respectfully requests closure of this recommendation.

          Reco mm end ation #3: Implement stronger measures to protect employee Social Security
          numbers and minimize their use.

          CDP Res ponse: Concu r. CB P concurs with this recommendation and notes that as part of
          its multi -year TEeS Modemi zation Plan it has begun to imp lement IT solut ions to remove
          the use of the SSN as a user ID and morc genera lly as a visible identifier for TEeS users
          and record owners. As part of the TEeS modernization plan, a proof of concept for the
          T EeS web a pplications was migrated to production for 30 TEeS users, within CBP, in
          November 20 II. A fU rl her demonstration of this technology fix is planned for an
          additional 12 TECS users across DHS components in March 2012. Lastly. with regard to
          lOlL In cident Log (Immigration Operations). TEeS Modernization has scheduled a
          planned implementation of functionality to remove the use of supervisor SSNs from
          approval functions, affecting 8,000 users, by March 2013.

          Co mpleti on Da te: March 31, 20 13

                  With regard to the sensitivity of the draft report, CBP has nOI identified information
          within the report requiring restricted public access. Enclosed for you r consideration arc
          CBP's technica l comments.

                   CBP acknowledges its continuing challenge to embed a culture o f pri vacy within
          all of its employees. C BP also recognizes that this challenge and the safeguardi ng of its
          vaSI information holdings are only successfull y met through a shared understanding and
          practice of all employees, from the Commissioncr on down. Once again, than k you for the
          opportunity to comment on the draft report.




                       U.S. Customs and Border Protection Privacy Stewardship


                                                     Page 19

Appendix B
Management Comments to the Draft Report


                                                     4

                 We look forward to working with you on future reviews. If you have any
          questions, please have a member of your staff comact Kathryn Dapkins, Audit Liaison,
          Office of Internal Affai rs at (202) 344-2102.

                                              Sincerely,



                                                 ~
                                              James F. Tomsheck
                                              Assistant Commissioner
                                              Office of Internal Affairs

          Enc losures




                        U.S. Customs and Border Protection Privacy Stewardship


                                                 Page 20

Appendix C
Legislation, Memoranda, Directives, and Guidance
Related to CBP Privacy Stewardship Audit

                                                   LEGISLATION

Privacy Act of 1974, as amended, 5 U.S.C. § 552a.
http://www.gpo.gov/fdsys/pkg/USCODE-2010-title5/pdf/USCODE-2010-title5-partI-chap5-subchapII-sec552a.pdf

E-Government Act of 2002, Public Law 107-347, 116 Stat. 2899.
http://www.gpo.gov/fdsys/pkg/PLAW-107publ347/pdf/PLAW-107publ347.pdf

Federal Information Security Management Act of 2002, 44 U.S.C. § 3541, et seq.
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf

Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-53, 121 Stat. 266, 360.
http://www.nctc.gov/docs/ir-of-the-9-11-comm-act-of-2007.pdf

The Security and Accountability For Every Port Act of 2006, Public Law 109-347, 120 Stat. 1884, 1924.
http://www.gpo.gov/fdsys/pkg/PLAW-109publ347/pdf/PLAW-109publ347.pdf

Homeland Security Act of 2002, as amended, Public Law 107-296, 116 Stat. 2135, 2179 (2002).
http://www.gpo.gov/fdsys/pkg/PLAW-107publ296/pdf/PLAW-107publ296.pdf

                                                OMB MEMORANDA

OMB M-07-16: Safeguarding Against and Responding to the Breach of Personally Identifiable Information (May 22,
2007). http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf

                                           DIRECTIVES AND GUIDANCE

DHS Memorandum: Designation of Component Privacy Officers (June 5, 2009). (No External Link Available)

DHS Management Directive Number 0470.2: Privacy Act Compliance (October 6, 2005).
http://www.dhs.gov/xlibrary/assets/foia/mgmt-directive-0470-2-privacy-act-compliance.pdf

Privacy Policy Guidance Memorandum Number 2008-01: The Fair Information Practice Principles: Framework for
Privacy Policy at the Department of Homeland Security (December 29, 2008).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-01.pdf

Privacy Policy Guidance Memorandum Number 2008-02: DHS Policy Regarding Privacy Impact Assessments
(December 30, 2008). http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-02.pdf

Privacy Policy Guidance Memorandum Number 2007-01: DHS Privacy Policy Regarding Collection, Use, Retention,
and Dissemination of Information on Non-U.S. Persons (January 7, 2009).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2007-1.pdf

Privacy Policy Guidance Memorandum Number 2007-02: Use of Social Security Numbers at the Department of
Homeland Security (June 4, 2007). http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2007-2.pdf

DHS Privacy Office: Handbook for Safeguarding Sensitive Personally Identifiable Information at the Department of
Homeland Security (October 6, 2011). http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_spii_handbook.pdf

DHS Privacy Office: Privacy Incident Handling Guidance (September 10, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf

DHS Privacy Office: Privacy Technology Implementation Guide (August 16, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_ptig.pdf

DHS Privacy Office: Privacy Impact Assessments: The Privacy Office Official Guidance (June 2010).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_pia_guidance_june2010.pdf

DHS Privacy Office: System of Records Notices Official Guidance (April 2008).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guidance_sorn.pdf

Office of Personnel Management Memorandum: Guidance on Protecting Federal Employee Social Security Numbers
and Combating Identity Theft (June 18, 2007).
http://www.cio.gov/Documents/Guidance_on_Protecting_Fed_Emp_SSNs.pdf



                            U.S. Customs and Border Protection Privacy Stewardship

                                                      Page 21
Appendix C
Legislation, Memoranda, Directives, and Guidance
Related to CBP Privacy Stewardship Audit
                                               CBP DOCUMENTS

Memorandum from the Acting Commissioner, U.S. Customs and Border Protection, to Deputy Secretary,

Department of Homeland Security (July 28, 2009). (No External Link Available)


CBP Records Disposition Schedule (2001). (No External Link Available)


Office of Information Technology: Information Systems Security Policies and Procedures Handbook Version 2.0,

HB1400-05D (July 27, 2009). (No External Link Available)




                           U.S. Customs and Border Protection Privacy Stewardship

                                                     Page 22
Appendix D
Component-Level Privacy Officer Designation and Duties

                    COMPONENTS TO DESIGNATE PRIVACY OFFICERS

                U.S. Customs and Border Protection
                Federal Emergency Management Agency
                National Protection and Programs Directorate
                Office of Intelligence and Analysis
                Science and Technology Directorate
                Transportation Security Administration
                U.S. Citizenship and Immigration Services
                U.S. Coast Guard
                U.S. Immigration and Customs Enforcement
                U.S. Secret Service

                          COMPONENT PRIVACY OFFICER DUTIES

        Communicate the component privacy initiatives, both internally and externally.

        Monitor component's compliance with all Federal privacy laws and regulations;
        implement corrective, remedial, and preventative actions; and notify the DHS
        Privacy Office of privacy issues or noncompliance when necessary.

        Provide privacy information to the DHS Privacy Office for the quarterly Federal
        Information Security Management Act reporting, Section 803 of the Implementing
        Recommendations of the 9/11 Commission Act reporting, the DHS Privacy Office
        Annual Report, and other reporting requirements, as needed.

        Serve as the point of contact to handle privacy incident response responsibilities
        as defined in the Privacy Incident Handling Guidance.

        Assist program managers and system of records owners in drafting and reviewing
        Privacy Threshold Assessments, Privacy Impact Assessments, and System of
        Records Notices, as well as any associated privacy compliance documentation.

        Implement and monitor privacy training for employees and contractors.


Source: DHS Memorandum, Designation of Component Privacy Officers, June 5, 2009.




                       U.S. Customs and Border Protection Privacy Stewardship

                                              Page 23
Appendix E
CBP Culture of Privacy Survey

We developed a privacy questionnaire with involvement of the CBP Privacy Officer. In
May 2011, we e-mailed CBP employees a hyperlink to a secure site to complete an online
culture of privacy survey. Survey participation was voluntary, confidential, and
accessible only by OIG.

The purposes of the survey were to obtain employees’ responses to three questions
regarding privacy risks, integrating privacy in daily operations, and challenges in CBP
privacy stewardship, as well as to assess their privacy knowledge based on the criteria in
appendix C.

A total of 7,727 respondents completed the CBP Culture of Privacy Survey. The
completed survey response rate was 13.1 percent (7,727 of 58,844). The following figure
provides the levels of job responsibility, locations, and lengths of service of respondents
who completed the survey.

                                        DEMOGRAPHICS
                               (n = 7,727 Survey Respondents)
                                  Level of Job Responsibility
                                 Entry-level Employees (16.6%)
                     Mid- to High-level (Non-manager) Employees (60.2%)
                            Supervisors/First-Line Managers (18.9%)
                               Executive/Senior Managers (4.3%)
                                            Location
               Office of the Commissioner and Mission Support Offices (19.2%)
                               Office of Field Operations (48.6%)
                                 Office of Border Patrol (29.5%)
                                 Office of Air and Marine (2.7%)
                                        Length of Service
                                   Less than 3 months (0.8%)
                                       3–12 months (4.2%)
                                        1–3 years (16.6%)
                                   More than 3 years (78.4%)
Figure 7. Demographics of Survey Respondents

We received a total of 7,229 individual comments and suggestions for improvements
from the survey respondents. We categorized these comments by six subjects: Culture
of Privacy, Privacy Stewardship, Data Governance, Administrative Safeguards, Technical
Safeguards, and Physical Safeguards. The percentages of recommended improvements in
each of the six categories are indicated in the pie chart, illustrated in figure 8.




                      U.S. Customs and Border Protection Privacy Stewardship

                                             Page 24
Appendix E
CBP Culture of Privacy Survey




Figure 8. Areas for CBP Culture of Privacy Improvement

Comments on Culture of Privacy, 1,794 (25%), recommended improvements by
executive managers, program operations managers, and employees in understanding and
applying their privacy responsibilities, such as the following:

   •	 A shared strategic vision on privacy matters throughout the organization (657);
   •	 Advancement of employee privacy protections, such as discontinuing the use of
      Social Security numbers (579); and
   •	 Mitigation of job-specific risks unique to employee work environments (558).

Comments on Privacy Stewardship, 1,496 (21%), identified the need for CBP to
advance privacy as an operational priority. Respondents recommended improvements,
such as the following:

   •	 Managerial and supervisory roles in encouraging the advancement of privacy
      through their example and ensuring uniform accountability (798);
   •	 Accessibility of consistent privacy guidance and policies with defined privacy
      goals and guidelines to achieve them (437);
   •	 Privacy protections on the job through the use of reminders (230); and
   •	 CBP Privacy Officer’s role in privacy (31).

Comments on Data Governance, 1,032 (14%), involved the consistent and proper
management of data during collection, use, storage, and disposition. Respondents
recommended improvements, such as the following:

                      U.S. Customs and Border Protection Privacy Stewardship

                                             Page 25
Appendix E
CBP Culture of Privacy Survey


   •	 Records management guidance on retention and disposition of PII (375);
   •	 Guidance explicitly limiting distribution of public and employee PII to individuals
      with a need-to-know disclosure (257);
   •	 Data quality and integrity (239); and
   •	 Guidance and practices regarding whether information should be shared (161).

Comments on Administrative, Physical, and Technical Safeguards, 2,907 (40%), are
discussed in a separate section of the report. Of all safeguards recommended, 743 (25%)
comments focused on improving privacy training, such as the following:

   •	 Increased frequency (346);
   •	 Expanded delivery options (232);
   •	 Incorporated privacy applications, using on-the-job and real-world examples that
      relate to the different programs and operations at CBP (85);
   •	 Added specialized privacy training for particular groups, such as new employees,
      supervisors, and executive managers (49); and
   •	 Simplified presentations and concepts for easier application to daily operations
      (31).




                     U.S. Customs and Border Protection Privacy Stewardship

                                            Page 26
Appendix F
CBP Privacy Compliance Status

OMB M-07-16 requires agencies to review their holdings of all PII and ensure that they
are accurate, relevant, timely, and complete. DHS privacy policy guidance requires a
privacy threshold analysis to be conducted every three years when significantly
changing existing systems, or when proposing new systems. The E-Government Act of
2002 requires a privacy impact assessment to be conducted for all new or substantially
changed information systems that collect, maintain, or disseminate PII to ensure that
privacy protections are incorporated during the development and operation of systems
and programs that affect PII. The Privacy Act of 1974 requires a system of record
notice to inform the public about what PII is being collected, why it is being collected,
how long it is being retained, and how it will be used, shared, accessed, and corrected.
The status of privacy compliance documentation could affect how CBP should address
privacy or trigger further review concerning the need to update privacy threshold
analysis, privacy impact assessments, or system of record notices on the underlying
systems.

Figure 9 provides the privacy compliance status for 95 systems. The figure shows the
date of documentation for 47 systems or programs that the CBP Privacy Officer identified
as his inventory of PII as of July 2011. Of the 47 systems or programs, 16 do not require
a privacy impact assessment and three do not require a system of records notice. In
addition, we compared several sources, including CBP’s information reported in Trusted
Agent’s inventory, CBP/Information Technology Intranet website, DHS Privacy Office’s
public website, and interviews with CBP personnel, and identified 48 potential systems or
programs during the course of the audit. The legend for our determinations is:

   Completed        Privacy threshold analysis, privacy impact assessment, or system of records notice on file
                    DHS Privacy Office/CBP agree that privacy impact assessment and/or system of records notice
     Need
                    are/is required
     None           Privacy threshold analysis was unavailable; CBP needs to make a determination
                    Either a system of records notice or privacy impact assessment does not apply to information
 Not Applicable
                    technology systems in CBP’s inventory
                    May be part of, but not fully addressed by, CBP’s published privacy impact assessments or
     Other
                    system of records notices
                    May affect privacy, but does not have a privacy threshold analysis. Therefore, we cannot
 Undetermined
                    determine whether the system requires a privacy impact assessment or system of records notice
  Out of Date       Privacy threshold analysis has expired date



                                      Types of Personally          Privacy
                                                                                    Privacy Impact       System Of
             Name                         Identifiable            Threshold
                                                                                     Assessment        Records Notice
                                         Information               Analysis

 Automated Commercial Environment (ACE)/Automated Commercial System (ACS) and Associated Applications

Automated Commercial                Broker, Cargo, Carrier,        Completed           Completed          Completed
Environment (ACE)                   Importer                      Jun 15, 2006        Jul 14, 2006       Jan 19, 2006


Automated Commercial System         Broker, Cargo, Carrier,       Completed           Completed           Completed
(ACS)                               Importer                      Nov 9, 2007         Dec 2, 2008        Dec 19, 2008




                            U.S. Customs and Border Protection Privacy Stewardship


                                                       Page 27

Appendix F
CBP Privacy Compliance Status

                                    Types of Personally           Privacy
                                                                               Privacy Impact     System Of
               Name                     Identifiable             Threshold
                                                                                Assessment      Records Notice
                                       Information                Analysis

Automated Export System            Broker, Cargo, Carrier,      Completed
                                                                                   Need              Need
(AES)                              Importer                     Nov 9, 2007

Secure Freight Initiative
International Container Security   Cargo                           None            Other            Other
(SFI/ICS)2
                           Automated Targeting System (ATS) and Associated Modules

Automated Targeting System         Traveler, Conveyance,         Completed      Completed         Completed
(ATS)                              Cargo                        Mar 28, 2008    Dec 2, 2008       Aug 6, 2007

Automated Targeting System         Traveler, Conveyance,
                                                                   None            Other            Other
Inbound (ATS-N)2                   Cargo

Automated Targeting System
                                   Traveler, Conveyance,
Intelligence and Operations                                     Undetermined   Undetermined      Undetermined
                                   Cargo
Framework System (IOFS)

Automated Targeting System         Traveler, Conveyance,
                                                                   None            Other            Other
Land (ATS-L)2                      Cargo

Automated Targeting System         Traveler, Conveyance,
                                                                   None            Other            Other
Outbound (ATS-AT)2                 Cargo

Automated Targeting System
                                   Traveler, Conveyance            None            Other            Other
Passenger (ATS-P)2

Automated Targeting System
                                   Traveler, Conveyance,
TAP (Trend Analysis and                                            None            Other            Other
                                   Cargo
Analytical Selectivity Program)2

E3: Next Generation of                                           Completed                        Completed
                                   Traveler                                        Need
ENFORCE                                                         Oct 26, 2007                     Mar 20, 2006

         Global Enrollment System / Western Hemisphere Travel Initiative and Associated Applications

Global Enrollment System                                         Completed       Completed        Completed
                                   Traveler, Passenger
(GES)                                                           Jul 27, 2006    Apr 20, 2006     Apr 21, 2006

                                                                 Completed       Completed        Completed
Global Entry                       Traveler, Passenger
                                                                Jul 14, 2006    Apr 20, 2006     Apr 21, 2006

Global Online Enrollment
                                   Traveler, Passenger             None            Other            Other
System (GOES)2

Western Hemisphere Travel                                        Completed       Completed        Completed
                                   Traveler
Initiative (WHTI)                                               Apr 18, 2007    Mar 24, 2008     Dec 19, 2008

Decal and Transponder Online                                     Completed                        Completed
                                   Conveyance                                      Need
Procurement System (DTOPS)                                      Oct 14, 2009                     Apr 21, 2006


Free and Secure Trade (FAST)1, 2 Cargo                             None            Other            Other


Customs-Trade Partnership          Broker, Cargo, Carrier,       Completed
                                                                                   Need              Need
Against Terrorism (CTPAT)          Importer                     Oct 22, 2009

                           TECS and Associated Functions or Resides on TECS Platform



                           U.S. Customs and Border Protection Privacy Stewardship


                                                     Page 28

Appendix F
CBP Privacy Compliance Status

                                   Types of Personally           Privacy
                                                                              Privacy Impact     System Of
               Name                    Identifiable             Threshold
                                                                               Assessment      Records Notice
                                      Information                Analysis

                                                                Completed       Completed        Completed
TECS                              Traveler, Employee
                                                                Jan 2, 2008    Dec 22, 2010     Dec 19, 2008

                                                                Completed       Completed        Completed
TECS Modernization                Traveler, Employee
                                                                Oct 4, 2007    Dec 22, 2010     Dec 19, 2008

Advanced Passenger
                                  Passenger, Crew                 None            Other            Other
Information System (APIS)2

Advanced Passenger
Information System (APIS)         Passenger, Crew                 None            Other            Other
Pre-Departure2

Electronic Advanced Passenger
                                  Passenger, Crew                 None            Other            Other
Information System (eAPIS)2

Integrated Advanced Passenger
                                  Passenger, Crew                 None            Other            Other
Information System (IAPIS)2

Border Security Deployment        Employee, Contractor,         Completed                        Completed
                                                                                  Need
(BSD)                             Traveler                      Apr 7, 2010                     Dec 19, 2008


CBP Vetting2                      Traveler                        None            Other            Other


DataShare Project Immigrant
                                  Traveler                        None            Other            Other
and Non-immigrant Visas2

                                                               Completed        Completed        Completed
License Plate Reader (LPR)1       Traveler
                                                               Sep 8, 2009      Jan 2, 2008     Dec 19, 2009


NIDPS External Interfaces1        Traveler, Passenger          Undetermined   Undetermined      Undetermined


Outlying Area Reporting Station
                                  Traveler                     Undetermined   Undetermined      Undetermined
(OARS)

Pedestrian Primary
                                  Traveler, Employee              None            Other            Other
Processing1, 2

Pleasure Boat Reporting
                                  Traveler, Conveyance            None            Other            Other
System (PBRS)2

Portable Automated Lookout
                                  Traveler                        None            Other            Other
System (PALS)1, 2

Primary Lookout Override
                                  Traveler, Passenger             None            Other            Other
(PLOR)1, 2

Regional Movement Alert
                                  Passenger, Crew              Undetermined   Undetermined      Undetermined
System (RMAS)


Regulatory Audit Management                                    Completed                         Completed
                                  Broker                                      Not Applicable
Information System (RAMIS)                                     Aug 4, 2008                      Dec 19, 2008




                           U.S. Customs and Border Protection Privacy Stewardship


                                                    Page 29

Appendix F
CBP Privacy Compliance Status

                                     Types of Personally           Privacy
                                                                                Privacy Impact     System Of
              Name                       Identifiable             Threshold
                                                                                 Assessment      Records Notice
                                        Information                Analysis

TECS – TECS Case                    General public involved
                                                                    None            Other            Other
Management1, 2                      in specific cases

TECS – Inspection Operations –
                                    Traveler, Passenger             None            Other            Other
Secondary Processing1, 2


TECS – TECS/NIIS1, 2                Traveler, Passenger             None            Other            Other


TECS – TECS Reporting1, 2           Traveler, Employee              None            Other            Other


Traveler Primary Arrival Client                                   Completed
                                    Passenger, Crew                                 Other            Other
(TPAC)1, 2                                                       Feb 24, 2010


Vehicle Primary Processing1, 2      Traveler, Employee              None            Other            Other

Data sets or feeds supplied by other Government agencies for use by CBP, covered by CBP information sharing
access agreement, and reside within the boundary of a CBP system

Currency or Monetary
                                    Traveler                        None            Other            Other
Instruments Report (CMIR)2

Customs Automated
                                                                  Completed                        Completed
Maintenance Inventory Tracking      Employee, Contractor                        Not Applicable
                                                                 Jan 30, 2009                     Dec 29, 2006
System (CAMITS)

Interstate Identification Index
                                    Traveler                        None            Other            Other
(III)2

National Crime Information
                                    Traveler, Passenger             None            Other            Other
Center (NCIC)2

National Law Enforcement
Telecommunications System           Traveler, Passenger          Undetermined   Undetermined      Undetermined
(NLETS)

Private Aircraft Enforcement
                                    Passenger                       None            Other            Other
System (PAES)1, 2


Security Filing2                    Broker, Cargo, Importer         None            Other            Other


U.S. Passport Load from
                                    Traveler, Passenger             None            Other            Other
Department of State2

UNCATEGORIZED: May be subsystem or module that is a major subdivision or component of an information
system; tools, application software, or specialized functionality to the hosted information system; or,
infrastructure, data set or feed, interface, or service within the boundary of a system. These systems may
include administrative, human resources, or financial systems.

10-Print Pilot Initiative1          Passenger, Crew              Undetermined   Undetermined      Undetermined


Active Directory/Exchange                                         Completed       Completed        Completed
                                    Employee, Contractor
(ADEX)                                                           Feb 24, 2010    Jan 14, 2009     Sep 29, 2009




                             U.S. Customs and Border Protection Privacy Stewardship


                                                      Page 30

Appendix F
CBP Privacy Compliance Status

                                   Types of Personally           Privacy
                                                                              Privacy Impact     System Of
            Name                       Identifiable             Threshold
                                                                               Assessment      Records Notice
                                      Information                Analysis

Air and Marine Operations                                       Completed
                                  Traveler, Cargo                                 Need          Not Applicable
Surveillance System (AMOSS)                                    Jul 28, 2009

Analytical Framework for          Traveler, Broker, Cargo,      Completed
                                                                                  Need              Need
Intelligence (AFI)                Carrier, Importer             Jan 9, 2009

Audit and Review Tracking
                                  Employee                     Undetermined   Undetermined      Undetermined
System (ARTS)1

Blackberry Enterprise Server
                                                                Completed       Completed        Completed
and Wireless Handheld Devices     Employee, Contractor
                                                               Aug 10, 2009    Jan 14, 2009     May 15, 2008
(BES WHD)

Border Patrol Enforcement         Employee, Contractor,         Completed                        Completed
                                                                                  Need
Tracking System (BPETS)           Traveler                     Jul 28, 2006                     Dec 19, 2008

Border Patrol Enforcement         Employee, Contractor,         Completed                        Completed
                                                                                  Need
Tracking System 2 (BPETS 2)       Traveler                     Jan 29, 2009                     Mar 20, 2006

Cargo Enforcement Reporting       Broker, Cargo, Carrier,
                                                               Undetermined   Undetermined      Undetermined
and Tracking System (CERTS)1      Importer

Computerized Aircraft
                                                                Completed
Reporting Materiel Control        Employee, Contractor                        Not Applicable        Need
                                                               Mar 24, 2010
(CARMAC)

CBP Application Integration                                     Completed                        Completed
                                  Employee, Contractor                        Not Applicable
Project (CAIP)                                                 Jan 21, 2009                     May 15, 2008

CBP Automated
Pre-Employment System             Employee                     Undetermined   Undetermined      Undetermined
(CAPES)1

CBP Automated Travel System
                                  Employee                     Undetermined   Undetermined      Undetermined
(CATS)

CBP Complaint Management
                                  Traveler                     Undetermined   Undetermined      Undetermined
System (CMS)

CBP Overtime Schedule System
                                  Employee                     Undetermined   Undetermined      Undetermined
(COSS)


CEAR1                             Employee, Contractor         Undetermined   Undetermined      Undetermined


Combined Automated                                              Completed                        Completed
                                  Employee, Contractor                        Not Applicable
Operations System (CAOS)                                       Oct 23, 2006                     Oct 28, 2008

Dedicated Commuter Lane
                                  Traveler                     Undetermined   Undetermined      Undetermined
(DCL)1

Enterprise Data Warehouse         Employee, Contractor,         Completed
                                                                                  Need              Need
(EDW)                             Traveler, Cargo              Jan 23, 2007


Enterprise Geospatial                                          Completed                         Completed
                                  Traveler                                    Not Applicable
Information Services (eGIS)                                    Nov 1, 2007                      May 15, 2008




                           U.S. Customs and Border Protection Privacy Stewardship


                                                    Page 31

Appendix F
CBP Privacy Compliance Status

                                   Types of Personally           Privacy
                                                                              Privacy Impact     System Of
             Name                      Identifiable             Threshold
                                                                               Assessment      Records Notice
                                      Information                Analysis

                                                               Completed
Enterprise Service Bus (ESB)      Employee, Contractor                            Need              Need
                                                               Aug 5, 2008

Enterprise Management
Information System –­             Employee, Contractor,         Completed
                                                                                  Need              Need
Enterprise Data Warehouse         Traveler, Cargo              Mar 24, 2010
(EMIS EDW)

Electronic System for Travel                                    Completed       Completed        Completed
                                  Traveler
Authorization (ESTA)                                           Nov 10, 2010    Jul 18, 2011     Jun 10, 2008

Firearms, Armor, and
                                                                Completed                        Completed
Credentials Tracking System       Employee                                    Not Applicable
                                                                Apr 3, 2008                     Oct 23, 2008
(FACTS)
I-94 Form, Non-Immigrant
Information Data Processing       Traveler, Passenger             None            Other             Other
System (NIDPS) formerly NIIS2

I-94 Secondary Processing
                                  Traveler, Passenger             None            Other             Other
Project2

Intellectual Property Rights
                                  General public               Undetermined   Undetermined      Undetermined
Search (IPRS)1

Intelligent Computer Assisted                                  Completed
                                  Traveler, Passenger                             Need              Need
Detection (ICAD)                                               Dec 2, 2009

Joint Integrity Case                                           Completed                         Completed
                                  Employee, Contractor                            Need
Management System (JICMS)                                      Feb 1, 2010                      Nov 14, 2008

National Finance Center Field                                   Completed                        Completed
                                  Employee, Contractor                        Not Applicable
LAN System                                                      Jan 7, 2009                     Oct 23, 2008

National Data Center
                                                                Completed                        Completed
Administrative Applications       Employee, Contractor                        Not Applicable
                                                               Oct 23, 2006                      Mar 5, 2007
(NDC Administrative Apps)
National Data Center Financial
                                                                Completed                        Completed
Applications (NDC Financial       Employee                                    Not Applicable
                                                               Jan 23, 2009                     Oct 23, 2008
Apps)

National Data Center Mainframe                                  Completed                        Completed
                                  Employee                                    Not Applicable
Infrastructure System                                          Apr 21, 2008                     May 15, 2008

Non-Intrusive Inspection (NII)                                 Completed
                                  Cargo, Carrier                                  Need          Not Applicable
Systems Program                                                Sep 5, 2007

National Targeting Center LAN                                  Completed                         Completed
                                  Employee, Contractor                        Not Applicable
System (NTC LAN)                                               Dec 7, 2006                      Dec 29, 2006

                                                                Completed                        Completed
OpSTAR                            Employee, Contractor                        Not Applicable
                                                                Oct 3, 2008                     May 15, 2008

Quality and Uniformity
                                  Broker, Cargo, Carrier,
Information Control System                                     Undetermined   Undetermined      Undetermined
                                  Importer
(QUICS)

Remedy Incident Reporting                                       Completed                        Completed
                                  Employee, Contractor                        Not Applicable
(Remedy)                                                       Jan 29, 2009                     Sep 29, 2009




                           U.S. Customs and Border Protection Privacy Stewardship


                                                    Page 32

Appendix F
CBP Privacy Compliance Status

                                      Types of Personally        Privacy
                                                                               Privacy Impact     System Of
                 Name                     Identifiable          Threshold
                                                                                Assessment      Records Notice
                                         Information             Analysis

    Systems, Applications, and                                   Completed                        Completed
                                     Employee, Contractor                      Not Applicable
    Products (SAP)                                              Mar 19, 2009                     Dec 29, 2006

    Secure Border Initiative-net                                Completed        Completed
                                     Biometrics                                                  Not Applicable
    (SBInet)                                                    Dec 2, 2009     Jul 20, 2007

                                                                 Completed
    SBInet Northern Border           Biometrics                                    Need              Need
                                                                 Jul 6, 2011

                                                                 Completed
    SBInet Southern Border           Biometrics                                    Need              Need
                                                                 Jul 6, 2011

    Seized Asset and Case Tracking Broker, Cargo, Carrier,      Completed                         Completed
                                                                                   Need
    System (SEACATS)               Importer                     Nov 5, 2007                      Dec 19, 2008

                                                                Completed                         Completed
    Virtual Learning Center (VLC)    Employee, Contractor                      Not Applicable
                                                                Sep 8, 2009                       May 8, 2006

Figure 9. CBP Privacy Compliance Status

1
 Listed on CBP Intranet, Office of Information Technology/program office pages, but not in Trusted Agent.
2
 Some privacy risks may be mitigated by information technology controls as described by pertinent system
security plans or other information technology documentation.




                              U.S. Customs and Border Protection Privacy Stewardship

                                                      Page 33
Appendix G
Inconsistencies Between Records Retention Schedules Published in System of
Records Notices and Internal Guidance

According to the Privacy Act, information in the published system of records notices
must accurately describe how Government employees handle the public’s PII. We
reviewed 26 different types of records described in CBP’s system of records notices for
34 systems. Figure 10 lists the 26 types of records that are described in the system of
records notices.

                                             Types of Records
                                                             Arrival-Departure Record for Nonimmigrant
    Aircraft Manifest
                                                             Visitors with a Visa for the U.S.
    Land Vehicle Manifest                                    Trusted Traveler Program Information
    Sea Vessel Manifest                                      Travel Document Information
                                                             Foreign National Arrival-Departure Information
    Postal Declaration
                                                             in Electronic and Paper Format
    Carrier, Broker, Importer/Exporter Account
                                                             Records Related to a Law Enforcement Action
    Information
    Importer Security Filing                                 Regulatory Audit Files
                                                             Law Enforcement Records, including Expired
    Shipper’s Information
                                                             Statutes of Limitation
    Passenger Name Record                                    Carrier Records
    Border Crossing Information of U.S. Citizens
                                                             Broker Files
    and Lawful Permanent Residents
    Border Crossing Information of Nonimmigrant
                                                             Cartmen and Lightermen Files
    Visitors
    Recordings with Security Incidents                       Warehouse Proprietor Records
    Recordings with Actions Taken by CBP                     Driver Records
    Foreign National Information via Visa Waiver             Information on Proprietor Bonded Warehouse
    Program                                                  Operators and Employees
Figure 10. Types of Records Described in CBP’s Published System of Records Notices

Records retention and disposal schedules are documents that identify an organization’s
records and provide instructions on how long to retain or maintain records and when to
dispose of records. We compared the published schedules in the system of records
notices with CBP’s internal guidance. Using guidance issued internally by CBP,
employees are not retaining PII for the same periods of time as published for the public in
the system of records notices. Figure 11 indicates the number of records identified in the
system of records notices by type of inconsistency.

                                                                      # Inaccurate Records
                    Type of Inconsistency                                  Scheduled
                                                                                                Percentage

 Records disposed of before the time published in the system of
                                                                                 7                 26.9%
 records notices
 Records held longer than the time published in the system of
                                                                                13                 50.0%
 records notices
 Retention and disposal of records not addressed by internal
                                                                                 6                 23.1%
 guidance
 Total # record schedules described in the system of                            26                 100%
 records notices

Figure 11. Inconsistencies in CBP’s Personally Identifiable Information Records Retention and
Disposal Schedules

                            U.S. Customs and Border Protection Privacy Stewardship

                                                   Page 34
Appendix H
DHS Fair Information Practice Principles at Work


                                                                           ThE Prh'tK y Offr.z

                 Homeland                                                  u .s. Ikparlmenl of lIomdand Secunly
                                                                           Wnhingloll , DC 20.H8

                 Security

                          The Fair Information Practice Pr inciples at Work

 DHS issued Privacy Policy Guidance Memorandum 2008-01 on December 29, 200S memorializing the Fair Information
 Practice Principles (FIPPs) 05 the foundational principles Jar privacy policy and implementation at OHS. The eight FIPPs
 form the basis of the Deportment's privacy compliance policies and procedures governing the use of personally
 identifiable information (PII). The FIPPs ore embedded into DH5 privacy sensitive systems, programs, and information
 shoring arrangements and are derived from the Privacy Act and other federal and international privacy guidelines. This
 document provides some typical examples of how the DHS Privacy Office oversees implementation of the FIPPs in the
 Department.

 Tra nsp are ncy
 DHS employs several means to provide transparency to the public of its activities and DHS privacy protections. DHS
 provides public notice of the collection, use, dissemination, and maintenance of PII through various mechanisms
 including: direct notice (commonly referred to as a Privacy Act e (3) statement) on forms used to collect information
 from individuals,; signage at U.S. ports of entry; and publication of privacy compliance documentation such as Privacy
 Impa ct Assessments (PlAs) OInd System of Reco rds Notices (SORNs). More broOldly, DHS implements transparency by
 making its PIAs, SORNs, guidOlnce, and other reports, includ ing congressiona lly· mandated reports, avai lOlble on the DHS
 Privacy Office website located OIt http://www.dhs.gov/ privacy. In some instances, la w enforceme nt or nOltional security
 concerns prevent public disclosure of specific details of systems and programs. In these defined cases, DHS notifies the
 public of the exemptions for relevant systems. Even for these exempted systems, however, DHS reviews access requests
 on a case-by-case basis.

 Individual PartIcipation
 DHS and its components have va ried missions, including benefits administration, grants adm inistration, border
 management, transpo rtation security, cyber security, law enforcement, and nationa l security. When programs carr ied
 out in pursuit of these missions require the collection of PII, OHS seeks to co llect PI! directly from individ uals. If OIn
 individual believes a benefit was denied o r som e type of Depa r tmental action (e.g., a referra l to secondary screening)
 was taken as a result of an error in his information, that individual may, regardless of citizenship, seek access to, and , as
 appropriate, correct his information through t he Freedom of Information Act (FO IA)/Privacy Act process. furthermore,
 DHS developed the DHS Traveler Redress Inquiry Program (DHS TRIP) to be a single point of contact to handle questions
 OInd concerns about travel screening. An individual hOls the additionOlI option of subm itting a request for correction
 directly with the DHS Chief Privacy Officer. Recognizing that certain DHS functions OI re law enforcement or national
 secu r ity sensitive, DHS will not always collect information directly from the individual o r permit OIccess to OInd/or
 correction of records through the FOIA/PrivOlcy Act process. In these cases, the Department provides notice through the
 relevant system Privacy Act exemption(s). and t hro ugh response to related inquiries.

 Purpose Specification
 DHS articulates the legal authority that permits the collection of PI! as well as the purpose or purposes for which the PI!
 is intended to be used in its PIAs and SORNs. As part of the pri vacy compliance process, a program must be able to
 OIrticulate the need for a particular collection of information with an appropriOlte legal authority and purpose
 justifica tion.




              Website: www.dhs.gov/privacy         Email: privacy@dhs.gov      Phone: 703-235-0780




                              U.S. Customs and Border Protection Privacy Stewardship


                                                           Page 35

Appendix H
DHS Fair Information Practice Principles at Work




 Data Minimization
 DHS seeks to min imize its co llection of PII th rough its privacy compliance processes in two ways. First, the DHS Privacy
 Office works with the Office of the Chief Information Office r on the Paperwork Reduct ion Act process that seeks to
 minimize the collection of information, including PI! from the public. Second, PIAs and SORNs require that data
 elements be ing collected are both releva nt and necessary for the stated pu rpose of the system. DHS places a special
 emphasis on reducing the use of Socia l Security numbers (SS Ns). DHS does not collect SSNs unless there is a va lid
 authority for the ir collect ion.

 Use limitation
 DHS limits its uses of PII to those that are permissible under law, a nd articulated in published PIAs and SORNs. Uses may
 include sharing both inside and outside of DHS. Within the Departme nt, use of PII is limited to personnel who have an
 authorized need-to-know fo r the information. For external s haring, these uses are lega lly defined "routine uses," and
 must be compatible with the original collection and purpose specification. Abse nt a statutory requirement to disclose
 specific information, such routine use sha ring decisions are made followin g a case-by-case review by the DHS Privacy
 Office to e nsure a request meets the requi rements. Sharing PH with externa l entities is done pursuant to routi ne uses
 articulated in published SORNs and may also be authorized by a written information sharing agreement, such as a
 Memorandum of Understanding, betwee n the Department and the receiving agency.

 Data Quality and Integrity
 To ens ure data quality, DHS collects information directly from the individua l where pract icable, especia lly in be nefit
 administra tion function s. Recognizing data errors occur, DHS ha s implemented redress mechanisms that enable
 ind ividuals to seek access and correction of their in fo rmation through t he FOIA/Privacy Act process, as described above.
 Trave lers who experie nce difficulties may also seek redress through DHS TRIP.

 Security
 Si nce privacy and security are complementary, DHS Priva cy Office works closely with the Office of the Chief Information
 Officer and the Chief Information Security Office r to ensure that security controls are put in place in rr systems that are
 commensurate with the sensitivity of the information they hold . Privacy requ ire ments are built into the DHS Sensitive
 System s Security Policy to safeguard PII from inappropriate, unauthorized, o r unlawful access, use, disclosure, or
 destruction. By law, such systems must be certified as meeting releva nt security standard s. System and program
 managers are required to complete a Privacy Threshold Analysis, as well as a PIA and SORN, if applicable, befo re an IT
 system becomes operational.

 Accountabi lity and Auditing
 DHS' privacy protections are subject to oversight by its Ch ief Privacy Officer and Inspector General as well as by the
 Governmen t Accountability Office and the U.S. Congress. In addition to t hese oversight mechanisms, component
 privacy officers, system owners, and program managers impleme nt acco untability in their systems and programs
 through activities such as periodic review of audit logs to ensu re that uses of PII are co nsistent with the purposes
 articulated for the collection of that information, as required by the Privacy Act. Further, as public documents, PIAs and
 SORNs not only demonstrate transparency but also serve as means by which the public can ho ld the Department
 accountable for its col lectio n, use, and sharing of PII.

 June 2011




               Website: www. dhs.gov/privacy        Email : privacy@dhs.gov    Phone: 703-235-0780




                             U.S. Customs and Border Protection Privacy Stewardship


                                                           Page 36

Appendix I
Major Contributors to this Report

                    Marj Leaming, Director
                    Eun Suk Lee, Lead Privacy Auditor
                    Kevin Mullinix, Program Analyst
                    Steven Tseng, Management and Program Assistant
                    Ernest Bender, Referencer




                   U.S. Customs and Border Protection Privacy Stewardship

                                          Page 37
Appendix J
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Commissioner of CBP
                      DHS Privacy Office
                      CBP Audit Liaison Office
                      CBP Privacy Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      U.S. Customs and Border Protection Privacy Stewardship


                                             Page 38

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
